      Department of Homeland Security





   FEMA Needs To Deobligate $1.1 Million in Unneeded 

    Funding and Disallow $52,812 in Unsupported Costs 

      Associated With the FEMA PA Grant Awarded to 

                  Pima County, Arizona 





DS-13-08                                         April 2013

                            OFFICE OF INS P[C I'OR GENERAL
                                     DepartmCllt of I lomc:lwxl Sa;wil y


                                                APR 1 6 201)

MEMORANDU M fOR:                         ncyWard
                                     \ _ V·o,n.11Ad ministra tor, Region IX
                                                                  'J'~nt ",enev

FROM:                                          ,
                                     Assistant Inspector eneral
                                     Office of Em e rgencV anagement Oversight

SUBJECT:                             FEMA Needs To Deobligate $1_1 Mil/ion In Unneeded
                                     Funding ond Disollow $52.812 in Umupt10rted Costs
                                     Associofed With the fEMA PA Grant Aworded to
                                     Plmo Coonty, Arizono
                                     FE MA DisiJs ter Number 1660-DR·AZ
                                     Audit Report Num ber D5-13·08

We audited Public Assistance {PAl gr~ nt fund s awarded to Pima County, Arizona
(CountV), Publ" Assistanc e Identification Num be r 019·99019-00, Our audit objective
wa s to determine wheth er the Cot.intV accounted for an d exp end ed Fe deral Emergency
Management "'ent'/' {FEMAJ grant funds accord itl@; to Federal regulatlonsa ndFEMA
guidelines.

The CounlV rl!(e lveQ a PA award of$7.5 million from the State of Arizon a Divi5ion of
Emergencv M;l na gem ent (ADEM), a FEMA grantee, for damages resulting Irom severe
storms and flooding. which occurred from July 2S to August 4, 2006, Th e award
provided 75 percent FEMA funding for 28 large ami 19 small projects: Th e audit
covered the period fro m Ju lV 25, 2006, to Fe bru ary 19, 2013. We audit ed !>even large
projects with award amounts totaling $4.1 million and project charges IOU ling
$3.5 miIl iotl. We <lIse performed a limlti!d review of one !>fIlall project <lnd 16 1i1rge
projects with ~w~rd amounb totaling $2.3 million a nd project chilr8H tota litlg
$ 1.8 mi ll ion, to id en tify any un u~ed fuods th aI shou ld be deo bli ga te d an d Pl.lt to better
use (see exhibit).

We conducted th l$ pe rformance audit betwe en De cember 3, 2012, and Februarv 19,
2013, purSl..I3nt t o th e Inspector General Act of 1978, a. amend ed, and alXOrding to
geoera llvaccepted govern ment auditing s' a nda fd~. Tho<;e standard s require that we
pfatl and perform the <l ud,t to obta.n sufficie nt. appropriate evidence to provide a
reasonable b;lsis for our finding:; iltld conclUSIOtl~ ba<;ed upon our audit objective. We


'FO<Ieral r~ul.ti ons W1 cff~ .t the time ~f Ine d l ~5ter set the !orge pr~j«1 tn reillold at $S7,500.
                             OFFICE OF INSPECTOR GENERAL

                                      Department of Homeland Security


   believe that the evidence obtained provides a reasonable basis for our findings and

   conclusions. To conduct this audit we applied the statutes, regulations, and FEMA 

   policies and guidelines in effect at the time of the disaster.


   We interviewed FEMA, ADEM, and County officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the
   adequacy of the County’s internal controls applicable to its grant activities because it
   was not necessary to accomplish our audit objective. However, we gained an
   understanding of the County’s method of accounting for disaster-related costs and its
   policies and procedures.


                                            RESULTS OF AUDIT

   Of the $5,227,507 in project charges we reviewed, the County generally expended and
   accounted for PA funds according to Federal regulations and FEMA guidelines for the
   seven projects we audited. However, we identified $1,123,565 of unneeded Federal
   funding that should be put to better use, and $52,812 in force account labor charges not
   eligible for reimbursement.

   Finding A: $1.1 Million in Unneeded Funding

   County officials indicated that they would not be claiming cost reimbursements totaling
   $1,123,565 on 20 large projects and 1 small project during the FEMA closeout (see
   exhibit). The 20 large projects were completed for less than the original estimate, and
   another party repaired the damages for the small project at no cost to the County.2

   Federal regulations stipulate the following:

       •	 Federal appropriations laws and the Statement of Federal Financial Accounting
          Standards (SFFAS) require Federal agencies to record obligations in the
          accounting records on a factual and consistent basis. 3 That is, the agency must
          increase or decrease obligated funds when probable and measurable
          information becomes known (7 Government Accountability Office (GAO) - Policy
          and Procedures Manual § 3.5.D (May 1993); B-300480, April 9, 2003; and SFFAS
          Number 5, paragraph 29). Agencies must document both the initial recordings
          and the adjustments to recorded obligations.


   2
    County officials informed ADEM that they will not be seeking reimbursement at project closeout.
   3
    U.S. Government Accountability Office, Principles of Federal Appropriations Law, 3rd edition, volume II,
   February 2006, chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).

www.oig.dhs.gov                                        2                                         	       DS-13-08
                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security


       •	 The grantee shall make an accounting of eligible costs for each large project and
          certify to FEMA that the reported costs were for eligible disaster work as soon as
          practicable after the subgrantee has completed the approved work and
          requested payment (44 CFR 206.205(b)(1)).

       •	 Final payment of the Federal share for small projects will be made to the grantee
          upon approval of the Project Worksheet. The grantee must certify that all such
          projects were completed in accordance with FEMA approvals. The Federal
          payment for small projects shall not be reduced if all of the approved funds are
          not spent to complete a project. However, failure to complete a project may
          require that the Federal payment be refunded (44 CFR 206.205(a)).

   The County submitted closeout documentation as of February 2013, identifying
   $1.1 million in unused funds for 21 projects. ADEM awarded the County $6.4 million for
   24 projects and the County spent only $5.2 million on 23 large projects. In addition,
   officials told us that the County did not complete one small project because another
   party repaired the damages at no cost to the County.

   FEMA and ADEM should deobligate unneeded funds in a timely manner because it—

       •	 Releases funds to cover cost overruns on other projects associated with the
          disaster;

       •	 Provides a more accurate status of PA program costs for a disaster; and

       •	 Is consistent with appropriations law and SFFAS Number 5, which requires
          accurate recording and support of obligations/liabilities in FEMA’s accounting
          system.

   Therefore, FEMA should deobligate $1,123,565 in unneeded PA funding and put those
   funds to better use. ADEM and County officials agree with this finding.

   Finding B: Force Account Labor Costs Not Eligible for Federal Reimbursement

   The County charged a total of $52,812 in force account labor costs under Projects 311,
   318, 320, and 326 that are not eligible for Federal reimbursement (see table).




www.oig.dhs.gov                                3                                 	      DS-13-08
                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security


                     Table. Costs Not Eligible for Federal Reimbursement 

                                                Costs Outside
                  Project                                       Unsupported
                             Costs Claim           FEMA’s
                  Number                                           Costs
                                               Scope of Work
                    311           $21,174           $21,174
                    318            10,687             10,687
                    320             9,996              9,996
                    326            10,955                         $10,955
                   Total          $52,812           $41,857       $10,955

   Federal regulations and FEMA guidelines stipulate the following:

       •	 For costs to be eligible, the subgrantees must have fiscal controls and accounting
          procedures that permit funds to be traced to a level of expenditure adequate to
          establish that such funds are not used in violation of applicable laws (44 CFR
          13.20(a)(2)).

       •	 Subgrantees must ensure that grant funds are used only for eligible work. FEMA
          will not provide funds for costs that are outside the approved scope of work
          (FEMA Applicant Handbook, FEMA 323 (1999), p. 52).

   The $52,812 in force account labor costs incurred by the County includes–

       •	 $41,857 in labor charges not authorized under FEMA’s approved scope of work
          for Projects 311, 318, and 320. The costs estimates for these projects included
          only contract work.

       •	 $10,955 of unsupported costs incurred under Project 326, as the County did not
          provide records such as timesheets to ensure that the costs incurred were for
          work performed on disaster-related activities.

   ADEM officials indicated that even though the $41,587 charged to Projects 311, 318,
   and 320 is outside FEMA’s scope of work, they plan to request reimbursement for the
   charges. Regarding the $10,955 charged to Project 326, ADEM officials explained that
   they are still working on getting the documentation to support these costs. Therefore,
   we question a total of $52,812 in force account labor costs that the County charged to
   Projects 311, 318, 320, and 326, and have determined that the costs are not eligible for
   Federal reimbursement.




www.oig.dhs.gov                                4                                 	      DS-13-08
                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security


                                     RECOMMENDATION

   We recommend that the FEMA Region IX Administrator:

   Recommendation #1: Deobligate $1,123,565 (Federal share $842,674) in unneeded
   funding related to 21 projects (finding A).

   Recommendation #2: Disallow $41,857 (Federal share $31,393) in ineligible force
   account labor costs pertaining to Projects 311, 318, and 320 (finding B).

   Recommendation #3: Disallow $10,955 (Federal share $8,216) in unsupported force
   account labor costs pertaining to Project 326, unless the County can provide adequate
   support (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

   We discussed the results of this audit with ADEM officials during our audit and included
   their comments in this report, as appropriate. We also provided a draft report in
   advance to FEMA and ADEM officials on February 1, 2013. We discussed the draft
   report at an exit conference with ADEM officials on February 19, 2013, and they
   generally agreed with the findings. FEMA and County officials did not require an exit
   conference.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until we receive and
   evaluate your response, we will consider the recommendations open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Western Region Audit Director;
   Louis Ochoa, Audit Manager; Renee Gradin, Auditor-in-Charge; and Willard Stark, Auditor.

   Please call me with any questions, or your staff may contact Humberto Melara, Western
   Region Audit Director at (510) 637-1463.



www.oig.dhs.gov                               5                                         DS-13-08
                                      OFFICE OF INSPECTOR GENERAL

                                               Department of Homeland Security


                                                                                                               EXHIBIT 


                                              Schedule of Audited Projects

                                           July 25, 2006, to February 19, 2013

                                                      Pima County

                                           FEMA Disaster Number 1660-DR-AZ


                                                                                  Project Costs
                                                            Project          Project
Project           Project            Project Award                               Recommended Questionable
                                                            Charges          Charges
Number           Category 4             Amount                                         for       Project Costs
                                                            Claimed         Reviewed
                                                                                  Deobligation
                                            Projects Subjected To Full Audit Review
 311                   D                    895,863       657,217     $657,217          238,646       $21,174
 314                   A                    254,616       254,616      254,616
 318                   D                    513,276       473,568      473,568           39,708        10,687
 320                   D                    998,032       649,327      649,327          348,705          9,996
 321                   B                    218,096       218,096      218,096
 322                   A                    573,920       573,543      573,543               377
 326                   D                    632,385       632,385      632,385                         10,955
Subtotal                                 $4,086,188 $3,458,752 $3,458,752              $627,436       $52,812
                                          Projects Subjected To Limited Audit Review
  18                   C                    $57,500        $4,124       $4,124          $53,376
  92                   C                     61,065        30,993       30,993           30,072
 103                   B                     96,857        70,340       70,340           26,517
 142                   A                    165,429       143,286      143,286           22,143
 146                   C                    124,506       109,866      109,866           14,640
 147                   B                     68,396        59,032       59,032             9,364
 177                   G                     61,978        47,500       47,500           14,478
 180 5                 C                       7,389            0             0            7,389
 184                   G                     83,406        80,241       80,241             3,165
 312                   A                    121,095       100,836      100,836           20,259
 315                   A                    212,080       159,780      159,780           52,300
 316                   D                    396,752       391,447      391,447             5,305


           4
             The types of disaster-related work are as follows: Category A = debris removal; Category B = emergency
           protective measures; Category C = roads and bridges; Category D = water control facilities; Category E =
           buildings and equipment; Category F = utilities; Category G = parks, recreational facilities, and other items.
           5
             Small project – the County will not be seeking reimbursement at project closeout.

    www.oig.dhs.gov                                              6                                                  DS-13-08
                           OFFICE OF INSPECTOR GENERAL

                                 Department of Homeland Security


                                                                     Project Costs   Ineligible
Project                                   Project      Project
                Project   Project Award                             Recommended        Force
Number                                    Charges      Charges
               Category      Amount                                       for         Account
(continued)                               Claimed     Reviewed
                                                                     Deobligation      Costs
   317             B            159,382    115,150    115,150               44,232
   319             B            185,954    135,950    135,950               50,004
   325             B            233,291    198,643    198,643               34,648
   327             F            129,804     82,605     82,605               47,199
   328             E            100,000     38,962     38,962               61,038
 Subtotal                    $2,264,884 $1,768,755 $1,768,755             $496,129            $0
 Totals                      $6,351,072 $5,227,507 $5,227,507           $1,123,565       $52,812




     www.oig.dhs.gov                          7                                      DS-13-08
                         OFFICE OF INSPECTOR GENERAL

                                Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-13-007)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (State of Arizona Division of Emergency Management)
   Director
   Assistant Director, Recovery

   Subgrantee (Pima County)
   Director, Finance

   Congressional Oversight and Appropriations Committees, as appropriate
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                               8                            DS-13-08
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
